CERTIFICATE OF SERVICE
No. 21-52
Emmanuel Edokobi
Petitioner,
v.
Toyota Motor Credit Corporation; SunTrust Bank
Respondents.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date; I served the parties in the above captioned matter with the
EMMANUEL EDOKOBI REPLY BRIEF, by mailing one (1) true and correct copy of the same by Fedex 2Day, prepaid for deliveryto the following addresses.
Philip T. Evans
Holland & Knight, LLP
Suite 1100
17th Street, NW
Washington, DC 20006-3202
(202) 457-7403
philip.evans@hklaw.com
Counsel for Toyota Motor Credit Corporation

Matthew A. Egeli, Esq.
Egeli Law Firm, PLLC
108 Mactanly P1
Suite D
Staunton, VA 24401
(540) 569-2690
matthew@egelilaw.com
Counsel for SunTrust Bank

Lucas eDeus

August 27, 2021
SCP Tracking: Edokobi-2005 Stratton Drive-Cover White

